                                                           OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG: Amtrak - OIG
              Month Ending Date: 07/31/2010

                                                            Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau        Recovery Act TAFS     Award Type        US Indicator      Total Obligations         Total Gross        Direct or        Ordering TAFS
No.                                                                                                                      Outlays        Reimbursable
      Amtrak - OIG               (69-0724 2009 \ 2013) Formula and Block      Y - US
                                 Amtrak - OIG -             Grant
  1                              Recovery Act                                                            $463,391          $434,511
  2
  3
  4
  5
  6
  7
  8

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          FY 2009 Non-        Total FY 2009     Total FY 2009   FY 2010 Non-Recovery       Total FY 2010     Total FY 2010
No.                                Recovery Act TAFS      Obligations      Gross Outlays         Act TAFS              Obligations      Gross Outlays
  1 Amtrak - OIG                 Amtrak - OIG                  $228,694          $228,465 Amtrak - OIG                     $453,950           $414,912
  2
  3
  4
  5
  6
  7
  8




                                                                                                                    OIG Monthly Reporting Template 073110.xls Page 1
